             U.S. Department of Agriculture

                Office of Inspector General
                         Southwest Region




   Audit Report

Farm Service Agency
Farm Programs Audit
in a Louisiana Parish




                    Report No. 03601-42-Te
                               March 2004
                  UNITED STATES DEPARTMENT OF AGRICULTURE
                                  OFFICE OF INSPECTOR GENERAL
                                          Southwest Region
                                      101 South Main, Suite 324
                                         Temple, Texas 76501
                                TEL: 254-743-6565 / FAX: 254-298-1373




DATE:         March 19, 2004

REPLY TO
ATTN OF:      03601-42-Te

SUBJECT:      Farm Service Agency Farm Programs Audit in a Louisiana Parish

TO:           Willie F. Cooper
              State Executive Director
              Farm Service Agency
              Alexandria, LA


This report presents the results of our audit of the Farm Service Agency Farm Programs Audit in
a Louisiana Parish. The Louisiana State Farm Service Agency Office’s response to the draft
report, dated March 2, 2004, is included in exhibit B with excerpts and the Office of Inspector
General’s position incorporated into the relevant sections of the report.

Based on the response, management decisions could not be reached on any of the
recommendations at this time. Documentation and/or actions needed to reach management
decisions for the recommendations are described in the Office of Inspector General position
section of the report.

Please furnish the information needed to reach management decisions for the recommendations
within 60 days. Please note that Departmental Regulation 1720-1 requires a management
decision for all recommendations within a maximum of 6 months from the date of report
issuance, and final action to be taken within 1 year of each management decision to preclude
being listed in the Department’s annual Performance and Accountability Report.

If you have any questions, please call me at 254-743-6565, or have a member of your staff
contact Billy Engelke, Assistant Regional Inspector General, at 254-743-6570.



/s/TRM
TIMOTHY R. MILLIKEN
Regional Inspector General
  for Audit
Executive Summary
Farm Service Agency Farm Programs Audit in a Louisiana Parish
(Audit Report No. 03601-42-Te)

Results in Brief    This report presents the results of our review of the newly implemented
                    Direct and Counter-Cyclical Program (DCP) and related farm programs in a
                    Louisiana parish (county). Under the Farm Security and Rural Investment
                    Act of 2002 (2002 Act), DCP was authorized and producers were provided
                    options for the calculation of DCP payments. One option was to roll over
                    the crop acreage bases and yields used to calculate the Production Flexibility
                    Contract (PFC) payments authorized under the previous farm bill.

                    We found that a current Farm Service Agency (FSA) county
                    committee (COC) chairperson misrepresented certain farming interests,
                    including farm ownership, on land with crop acreage bases and yields. The
                    misrepresentations occurred during the 1996 through 2002 PFCs and were
                    perpetuated into the 2002 and 2003 DCP contracts. As of May 14, 2003, the
                    chairperson had received farm program payments totaling $814,355 under
                    the 1996 through 2003 programs.

                    Another Louisiana producer received farm program benefits for the crop
                    acreage bases on land in which he had no interest. Although the producer
                    had a verbal agreement with the purchaser of the land sold in June 1997, the
                    producer failed to notify the county office of the change in ownership. The
                    producer also failed to follow prescribed procedures for retaining crop
                    acreage bases associated with the sale of cropland. The producer continued
                    to receive both the PFC payments and, once implemented, the
                    DCP payments associated with the crop acreage bases on the sold land. As a
                    result, the producer received excessive farm program benefits totaling
                    $104,035 under the 1997 through 2003 programs.

Recommendations
In Brief            We recommend the recovery of 1996 through 2003 farm program benefits
                    totaling $814,355 from the COC chairperson and associated entities.
                    Additionally, we recommend the Louisiana State FSA take administrative
                    sanctions against the chairperson and correct crop acreage bases on
                    applicable land tracts as deemed necessary.

                    Additionally, we recommend the recovery of 1997 through 2003 farm
                    program payments totaling $104,035 from the Louisiana producer who
                    failed to notify the county office of the land sale. Also, we recommend the
                    county office update the farm program records to reflect current land
                    ownership and determine the proper division of the crop acreage bases.


USDA/OIG-A/03601-42-Te                                                                     Page i
                    We recommend administrative action as deemed appropriate for the program
                    technician that failed to update farm records after the change in farm
                    ownership was reported to the county office.

Agency
Response            In a letter dated March 2, 2004, the Louisiana State FSA Committee
                    concurred with the recommendations in the report. As administrative actions
                    are taken, the State office will provide Office of Inspector General (OIG)
                    copies of determination letters, documentation showing receivables have
                    been established, and documentation showing other actions have been taken.

OIG
Position           We agree with your planned actions. To reach management decisions, we
                   will need the documentation referred to in your response for the applicable
                   administrative actions.




USDA/OIG-A/03601-42-Te                                                                  Page ii
Abbreviations Used in This Report


ARP               Acreage Reduction Program
CFR               Code of Federal Regulations
COC               County Committee
DCP               Direct and Counter-Cyclical Program
FSA               Farm Service Agency
FSN               Farm Serial Number
MLA               Marketing Loss Assistance
OIG               Office of Inspector General
PFC               Production Flexibility Contract
2002 Act          Farm Security and Rural Investment Act of 2002




USDA/OIG-A/03601-42-Te                                             Page iii
Table of Contents
Executive Summary .................................................................................................................................i

Abbreviations Used in This Report ......................................................................................................iii

Background and Objectives ................................................................................................................... 1

Findings and Recommendations............................................................................................................ 2

    Section 1. False and/or Misleading Information ........................................................................... 2

        Finding 1             COC Chairperson Misrepresents Land Ownership To Secure Program
                              Benefits.................................................................................................................... 2
                                  Recommendation No. 1.................................................................................... 7
                                  Recommendation No. 2.................................................................................... 8
                                  Recommendation No. 3.................................................................................... 8
        Finding 2             Producer Received Program Benefits For Crop Base On Land Previously
                              Sold.......................................................................................................................... 9
                                  Recommendation No. 4.................................................................................. 11
                                  Recommendation No. 5.................................................................................. 11
                                  Recommendation No. 6.................................................................................. 12

Scope and Methodology........................................................................................................................ 13

Exhibit A – Summary of Monetary Results ....................................................................................... 14
Exhibit B– FSA Response..................................................................................................................... 15




USDA/OIG-A/03601-42-Te                                                                                                                            Page iv
Background and Objectives
Background          The Federal Agriculture Improvement and Reform Act of 1996 authorized
                    several important changes to United States farm policy for crop years
                    1996 through 2002. The most important change was the replacement of
                    deficiency payments, which made up the difference between the market
                    price and a target price under the previous Acreage Reduction Program
                    (ARP), with fixed annual PFC payments for producers of grains and upland
                    cotton. PFC payments were based on historical yields and acreage. They
                    were received whether or not a crop was planted, and did not depend on
                    what crop was planted (except for fruit and vegetable restrictions). This
                    decoupling of payments from production controls was a departure from the
                    earlier ARP, which mandated strict acreage limitations and mandatory
                    acreage idling or set-aside requirements.

                    The 2002 Act, Public Law 107-171, provided for the continuation of
                    agricultural programs through fiscal year 2007 and set forth DCP payment
                    provisions for crop years 2002 through 2007. DCP payments provide
                    income support to producers of eligible commodities and are based on
                    historically based acreage and yields and do not depend on the current
                    production choices of the farmer.

                    The 2002 Act authorized not only fixed direct payments for wheat, corn,
                    barley, grain sorghum, oats, upland cotton, and rice (the same crops eligible
                    for PFC payments and same type of payment as the PFC payment), but also
                    included oilseed crops as additional crops eligible for fixed direct payment.
                    Additionally, the 2002 Act authorized counter-cyclical payments for crop
                    years 2002 through 2007 for these same crops. The 2002 Act set a
                    precedent, in that soybeans and other oilseeds are eligible for the same
                    program as wheat, feed grains, cotton, and rice. Peanuts are also eligible for
                    DCP payments.

Objectives          The objectives of this audit were to determine (1) whether participants were
                    eligible for program participation, and (2) whether payments were accurately
                    based on valid acreage and yield determinations.




USDA/OIG-A/03601-42-Te                                                                     Page 1
Findings and Recommendations
Section 1. False and/or Misleading Information

    Finding 1                            COC Chairperson Misrepresents Land Ownership To Secure
                                         Program Benefits

                                         The chairperson of the COC misrepresented the ownership of land and crop
                                         acreage bases for program purposes. In order to maximize FSA program
                                         benefits, the chairperson intentionally provided false and/or misleading
                                         information applicable to farm program participation. As a result, the
                                         chairperson and associated entities received farm program benefits totaling
                                         $814,355.

                                         PFC regulations provide that, to be eligible to enter into a PFC, the producer
                                         must own, share-rent lease, or cash rent the participating farm.1 The
                                         regulations further state that the COC shall approve a contract for enrollment
                                         and approve the division of payment when all landowners, tenants, and
                                         sharecroppers sign the contract and agree to the payment shares shown on
                                         the contract.2

                                         In the county for program years 1996 and 1997, the COC chairperson’s son
                                         and daughter-in-law entered into a FSA-administered PFC on farm serial
                                         number (FSN) 1228 with crop acreage bases totaling 668.0 acres.
                                         FSA records show the farm was comprised of 7 tracts of land totaling
                                         1,136.9 acres of cropland as shown in Table 1 on the following page. The
                                         son lives and farms in another county. Almost 90 percent of the cropland
                                         was owned by a family-owned corporation of which the COC chairperson is
                                         the president and a stockholder. The remaining acreage was owned by five
                                         individuals and one estate.




1
    Title 7, Code of Federal Regulations (CFR), section 1412.202, January 1, 1997, edition.
2
    Title 7, CFR, section 1412.303, January 1, 1997, edition.
USDA/OIG-A/03601-42-Te                                                                                          Page 2
                                                FSN 1228 FARM AND TRACT DETAIL LISTING

                                                                       RICE           WHEAT              OATS                 TOTAL
                             TRACT             CROPLAND                BASE            BASE               BASE                 BASE
                               NO.               ACRES                ACRES           ACRES              ACRES                ACRES
                               417*                    6.8                2.8              0.0                0.0                   2.8
                               506                    19.7                8.3              0.0                0.0                   8.3
                               507                    35.1               14.8              0.0                0.0                  14.8
                               516                    23.3                9.8              0.0                0.0                   9.8
                               517                    36.1               15.2              0.0                0.0                  15.2
                               522*                  293.6              123.5              0.0                0.0                 123.5
                              1447*                  722.3              303.6            171.2               18.8                 493.6
                             TOTALS                1,136.9              478.0            171.2               18.8                 668.0

                                                                                  Table 13
                                                                *Denotes tracts owned by the corporation.

                                    The son share-rent leased the farm from the corporation at a rate of
                                    33 percent of the PFC payment for the farm’s rice base and 10 percent of the
                                    payments for both the wheat and oats bases. According to the chairperson’s
                                    son, he thought all land in the farm was owned by the corporation. The
                                    chairperson’s son was unaware that several tracts of cropland with rice
                                    acreage bases on the farm were not owned by the corporation. The
                                    chairperson’s son stated that he never leased land from the other landowners.
                                    Furthermore, the PFC designates zero shares for these landowners;
                                    consequently, these landowners never received either a (share-rent) portion
                                    of the PFC payments or a cash-lease payment from the tenant.

                                    Although the 1996 PFC for FSN 1228 listed six landowners other than the
                                    corporation, the other landowners listed on the contract did not sign the
                                    contract as required by program regulations. On June 18, 1996, the
                                    COC reviewed the contract and authorized the County Executive
                                    Director payment approval authority after the signatures of all producers
                                    were obtained. Even though these signatures were not obtained, the County
                                    Executive Director       approved the contract for payment on
                                    September 26, 1996.

                                    One of the landowners of record that did not sign the contract was the
                                    COC chairperson’s aunt. The chairperson’s aunt was listed as the owner of
                                    tract 517. The chairperson had signature authority for his aunt dating back
                                    to the 1983 program year; hence, the aunt never appeared in the county
                                    office to sign the appropriate documents for participation in farm programs.

3
  Data was obtained from the 1995 program year FSA Report of Acreage (Form FSA 578) and Form AD-1026, and the 1996 program year PFC for
FSN 1228.
USDA/OIG-A/03601-42-Te                                                                                                              Page 3
                    However, Social Security Administration records identify the aunt as having
                    been deceased since December 1991. After her death, her son inherited the
                    land and subsequently sold the land on September 7, 1993. The chairperson
                    failed to notify the FSA County Office of her death and continued to
                    misrepresent himself as her legal agent. Additionally, the chairperson never
                    notified the county office of the change in land ownership, thereby creating
                    an avenue for the chairperson to continue to include the tract of land in his
                    son’s farming interest.
                    `
                    On the 1997 contract, there were no reported changes in the payment shares;
                    therefore, the contract rolled over from the previous year without the
                    required signatures. On November 17, 1997, the chairperson of the
                    COC utilized his signature authority for his son and initiated a farm
                    reconstitution of FSN 1228. The reconstitution was a result of the
                    corporation’s sale of tract 522. The chairperson, acting in his capacity as
                    president of the corporation, designated the crop acreage base on
                    tract 522 be transferred to tract 1447 on the resulting farm (FSN 1431).

                    During the reconstitution process, the county office prepared the
                    Abbreviated 156 Farm Record (Form FSA-156EZ) for the parent farm
                    (FSN 1228) identifying only tracts 517, 522, and 1447 on the farm.
                    Subsequently, the resulting FSN 1431 was comprised of tracts 517 and 1447;
                    however, the total crop acreage bases on the farm were unchanged from the
                    original crop acreage bases detailed in Table 1. Tract 417 had been
                    eliminated prior to the 1996 program year and the crop acreage base reduced
                    accordingly. However, the other 3 tracts of land (tracts 506, 507, and 516)
                    had been eliminated from the farm with no loss of crop acreage bases for the
                    farm. These 3 tracts were not owned by the corporation, but the corporation
                    now was utilizing their crop acreage bases. County office personnel were
                    unsure when and why the tracts were deleted. Transaction log analysis
                    determined tract 506 was deleted on August 28, 1997, and tracts 507
                    and 516 were deleted on September 2, 1997.

                    For the 1998 through 2002 program years, the chairperson’s son and
                    daughter-in-law participated in the PFC with the newly created FSN 1431.
                    The chairperson’s son continued to share-rent lease land from the
                    corporation at a rate of 33 percent of the payment for the rice base.
                    However, the chairperson’s son remained unaware that his farming interest
                    included land that was not owned by the corporation. The chairperson
                    continued to sign the PFC for his deceased aunt, essentially misrepresenting
                    the legal ownership of the land.

                    According to the COC chairperson, he was not sure when he was informed
                    of the aunt’s death. The chairperson stated that he discussed the
                    September 1993 land sale with one of the two purchasers of the land shortly

USDA/OIG-A/03601-42-Te                                                                    Page 4
                    after the transaction was final. Although neither the chairperson nor his son
                    leased the land from the new owners, the chairperson stated that the crop
                    acreage bases on the land were combined with the corporation’s bases, and
                    the corporation was entitled to the farm program payments attributed to
                    these bases. The COC chairperson went on to say that the bases on the land
                    tracts that had been deleted from his son’s farming operation were also
                    combined with the corporation’s bases, and all the landowners were aware
                    that the chairperson was benefiting financially from the landowners’ crop
                    acreage bases. However, our review disclosed that at least one of the
                    landowners had no knowledge that the COC chairperson’s son had included
                    this owner’s land in the farming operation and was benefiting financially
                    from the situation. Two other landowners stated that they did not realize
                    there was crop acreage base on their land, as they thought their mother had
                    sold the base to the COC chairperson years ago.

                    Having served on the county committee for 18 consecutive years,
                    the COC chairperson should have known the signature authority granted
                    with a power of attorney ceases upon the death of either the grantor or the
                    grantee. Additionally, county committee members have the responsibility to
                    review documents filed by producers for accuracy and reasonableness prior
                    to FSA farm program participation.          In those instances where the
                    documentation is inaccurate or incomplete, it is incumbent upon the
                    committee to require clarification and/or additional information. With the
                    responsibility of annually reviewing PFC contracts, farm plans, acreage
                    certifications, farm reconstitutions, etc., the chairperson was aware that
                    landowners and land tracts had been removed from his son’s farming
                    operation without a reduction of crop acreage bases. The chairperson should
                    have recognized the deletion of land tracts during the farm reconstitution he
                    initiated in November 1997.

                    Acting on behalf of the corporation in his legal capacity as the president, the
                    COC chairperson disregarded program procedures and failed to notify the
                    county office that land included in his son’s farming interest was neither
                    owned nor leased by the son. Knowledge of program regulations and
                    procedures is paramount in the performance of the duties of the COC.
                    Considering the farm program knowledge county committee members must
                    have to perform their duties, committee members should be held to a higher
                    standard, especially when it applies to compliance with program regulations
                    and procedures. The COC chairperson disregarded his duties and benefited
                    financially from his continued misrepresentation of facts surrounding the
                    corporation’s land and crop acreage bases. PFC regulations provide that any
                    producer who has knowingly misrepresented any fact affecting a program
                    determination shall refund all payments, plus interest, received by the



USDA/OIG-A/03601-42-Te                                                                      Page 5
                                       producer, with respect to all contracts.     The producer’s interest in all
                                       contracts shall be terminated.4

                                       The family-owned corporation for which the chairperson serves as president
                                       received 1996 through 2002 PFC and marketing loss assistance (MLA)
                                       payments totaling $410,387. Also, the chairperson, farming as a 100-percent
                                       shareholder in another corporation, received 1996 through 2002 PFC and
                                       MLA payments totaling $343,207. In addition, the chairperson received
                                       1996 through 2002 PFC and MLA payments totaling $52,997 as a member
                                       of a partnership. Based on the chairperson’s intentional misrepresentation of
                                       land ownership during the 1996 through 2002 program years, PFC and
                                       MLA payments totaling $806,591 ($410,387 + $343,207 + $52,997) should
                                       be refunded.

                                       The 2002 Act provided for the DCP. The DCP provided for payments to
                                       producers based on crop acreage bases and yields. Like the PFC, the
                                       DCP regulations provide that, to be eligible to enter into a contract, the
                                       producer must own, share-rent lease, or cash rent the participating farm.5 As
                                       with the PFC, the COC chairperson’s son and daughter-in-law participated
                                       in the DCP for program years 2002 and 2003 as the producers on FSN 1431.
                                       As in the later years of the PFC, the chairperson’s son share-rent leased the
                                       corporation’s land at a rate of 33 percent of the payment for the rice base.
                                       The DCP regulations provided the owner(s) on the farm the opportunity to
                                       select the method to establish the base acres and yields for all covered
                                       commodities on the farm.6

                                       The COC chairperson, acting in his capacity as president of the corporation,
                                       made the election to roll over the PFC base and yield on FSN 1431. In
                                       addition, the chairperson informed the county office that land previously
                                       reported as owned by his aunt was now owned by a timber company. Based
                                       on the COC chairperson’s notification, the county office updated the records
                                       to include the timber company as a landowner on FSN 1431. However, the
                                       chairperson failed to notify the county office that there was a third
                                       landowner on FSN 1431 that should have been included in the base and
                                       yield election process. This landowner was not aware that his land and crop
                                       acreage base were enrolled in the DCP and that the base and election had
                                       already been determined.

                                       Additionally, the chairperson continued to perpetuate the overstatement of
                                       crop acreage bases on the corporation’s land, as it included base on land that
                                       he neither owned nor leased. The son remained unaware that a portion of
                                       the rice base actually belonged to landowners other than the corporation.

4
  Title 7, CFR, section 1412.405, January 1, 1997, edition.
5
  Title 7, CFR, section 1412.402, dated October 21, 2002.
6
  Title 7, CFR, section 1412.402, dated October 21, 2002.
USDA/OIG-A/03601-42-Te                                                                                        Page 6
                    These landowners were not only excluded from the base and yield election
                    process, but also failed to receive program benefits for their crop acreage
                    bases.

                    As previously mentioned, the COC chairperson stated that the corporation’s
                    crop acreage bases had been combined with the base on those tracts included
                    in the farming interest for several years. The chairperson acknowledged that
                    he neither owned nor leased the property; however, he contended the
                    landowners were aware that he was financially benefiting from their crop
                    acreage bases. He went on to state that the landowners approved of the
                    arrangement. However, based on our interviews with landowners, it was
                    apparent that the landowners were unaware that the crop acreage bases were
                    still attributed to their land tracts.

                    Based on the COC chairperson’s continued misrepresentation of the land
                    ownership, the COC approved the base and yield election on FSN 1431
                    without the required landowner signatures. Subsequently, the program
                    contract was approved with the chairperson’s son, daughter-in-law, and the
                    corporation sharing the payments. The landowner that had been omitted
                    from the base and yield selection was also excluded from the payment
                    process. In addition, the chairperson’s failure to report the overstated crop
                    acreage base on the corporation’s land resulted in program
                    year 2002 overpayments on the farm. As of May 14, 2003, the corporation
                    had received $7,764 for the DCP contract on FSN 1431. This DCP contract
                    should be determined invalid, and all resulting payments to the corporation
                    should be recovered.

Recommendation No. 1

                    Recover improper program payments totaling $814,355 (1996 through 2002
                    PFC payments and MLA payments totaling $806,591, and 2002 DCP
                    payments totaling $7,764).

                    Agency Response.

                    The State Committee concurs with this recommendation. As administrative
                    actions are taken, OIG will be provided copies of determination letters, and
                    documentation showing receivables have been established.

                    OIG Position.

                    We agree with the planned action. To reach management decision, we will
                    need the documentations as described in your response.



USDA/OIG-A/03601-42-Te                                                                    Page 7
Recommendation No. 2

                    Take appropriate administrative sanctions on the improper actions of the
                    chairperson of the FSA COC.

                    Agency Response.

                    The State Committee concurs with this recommendation. As administrative
                    actions are taken, OIG will be provided documentation.

                    OIG Position.

                    We agree with the planned action. To reach management decision, we will
                    need documentation of FSA’s administrative sanctions taken against the
                    chairperson of the COC.

Recommendation No. 3

                    Take administrative action to correct the crop acreage bases on all tracts of
                    land deleted from FSN 1228/1431, and notify owners of their potential
                    eligibility in the DCP.

                    Agency Response.

                    The State Committee concurs with this recommendation. As administrative
                    actions are taken, OIG will be provided documentation.

                    OIG Position.

                    We agree with the planned action. To reach management decision, we will
                    need documentation showing that crop acreage bases on all tracts of land
                    deleted from FSN 1228/1431 have been corrected and owners have been
                    notified of their potential eligibility in the DCP.




USDA/OIG-A/03601-42-Te                                                                    Page 8
Finding 2                              Producer Received Program Benefits For Crop Base On Land
                                       Previously Sold

                                       For the 1997 through 2003 crop years, a Louisiana producer received farm
                                       program benefits on land in which he had no interest. The producer sold the
                                       land in 1997 and failed to notify the FSA County Office of the change in
                                       ownership. As a result, the producer received excessive farm program
                                       benefits totaling $104,035.

                                       As previously stated, PFC regulations provide that, to be eligible to enter
                                       into a PFC, the producer must own, share lease, or cash rent the participating
                                       farm.7 The regulations further stated that a person may succeed to the
                                       contract if there has been a change in ownership of the land. The producer
                                       must inform the COC of changes in interest 30 days after the change is made
                                       on the farm, but no later than September 30 if a new producer is being added
                                       to the contract.8 Additionally, a producer who is determined to have
                                       erroneously represented any fact affecting a program determination shall not
                                       be entitled to contract payments and must refund all payments, plus interest.9

                                       For the 1996 and 1997 program years, the producer and his wife entered into
                                       PFCs as owners/producers on FSNs 639 and 1349 with total crop acreage
                                       bases of 57.8 and 99.9 acres, respectively. On June 9, 1997, the producer
                                       sold FSN 1349, subject to a verbal agreement with the purchaser that the
                                       producer would retain the crop acreage bases on the farm.

                                       On November 12, 1997, 5 months after FSN 1349 was sold, the producer
                                       initiated a farm reconstitution to combine FSNs 639 and 1349. According to
                                       the producer, the reconstitution was initiated for the sole purpose of retaining
                                       the crop acreage bases on FSN 1349. However, the producer failed to
                                       inform the county office that he no longer owned FSN 1349, as required by
                                       program regulations. The COC, without knowledge of the sale, approved
                                       the farm reconstitution, combining the two farms into FSN 1414, with total
                                       crop acreage bases of 157.7 acres.

                                       The producer annually certified the acreage on the FSA Report of Acreage
                                       (Form FSA-578) as the sole owner of FSN 1414 for the 1998 through
                                       2002 program years. Continuing to present himself as the sole owner of the
                                       farm, the producer received 100 percent of the PFC and MLA payments,
                                       totaling $93,358 during this period, even though he no longer owned or
                                       leased the tract of land (formerly FSN 1349) that contributed 63 percent of
                                       the overall crop acreage bases on the combined farm.

7
  Title 7, CFR, section 1412.202, January 1, 1997, edition.
8
  Title 7, CFR, section 1412.207, January 1, 1997, edition.
9
  Title 7, CFR, section 1412.405, January 1, 1997, edition.
USDA/OIG-A/03601-42-Te                                                                                          Page 9
                                        According to the producer, lack of knowledge of FSA program regulations
                                        and procedures was the contributing factor in the violations associated with
                                        FSN 1414. The producer stated that he had no prior knowledge of farm
                                        reconstitutions or PFC procedures. Although the producer admits to never
                                        notifying the county office of the land sale, he contends there was a verbal
                                        agreement with the purchaser for the producer to retain the crop acreage
                                        bases on the land sold. The purchaser of the land confirmed the verbal
                                        agreement was in place prior to the transaction. However, there are no
                                        PFC provisions for a person to retain crop acreage base separate from the
                                        land to which the base is attributed.

                                        On February 9, 2001, the producer and the current owner of the farm
                                        previously recognized by FSA as FSN 1349 (currently a part of FSN 1414
                                        per FSA records), applied for the 2000 Livestock Assistance Program.
                                        During the Livestock Assistance Program application process, the current
                                        owner informed the county office of the change in ownership of the portion
                                        of FSN 1414 that was previously FSN 1349. However, the program
                                        technician failed to make the necessary updates of FSA records. Instead, the
                                        program technician documented the current owner as leasing the land from
                                        the producer, thereby allowing the current owner eligibility in the Livestock
                                        Assistance Program without affecting the producer’s PFC payments.
                                        According to the program technician, after the Livestock Assistance
                                        Program application process was completed, the ownership issue was
                                        forgotten.

                                        The county office’s failure to properly update the records contributed in the
                                        producer’s ability to continue presenting himself as the sole owner/producer
                                        on FSN 1414 for participation in the DCP provided for in the 2002 Act. The
                                        DCP regulations provided the owner(s) on the farm the opportunity to select
                                        the method to establish the base acres and yields for all covered commodities
                                        on the farm.10 Contrary to these regulations, on November 4, 2002, the
                                        producer signed the Direct and Counter-Cyclical Program Base and Yield
                                        Election (form CCC-515) for FSN 1414, thereby selecting the method of
                                        base and yield establishment on land in which the producer had no interest.
                                        Subsequently, the producer signed the contracts to participate in both the
                                        2002 and 2003 program years, even though he did not own or lease the land
                                        with the majority of the crop acreage bases. As of June 17, 2003, the
                                        producer had received program year 2002 DCP payments and program year
                                        2003 direct payments for FSN 1414 totaling $10,677.




10
     Title 7, CFR, section 1412.402, dated October 21, 2002.
USDA/OIG-A/03601-42-Te                                                                                       Page 10
Recommendation No. 4

                    Recover program years 1997 through 2002 PFC and MLA payments,
                    plus program years 2002 and 2003 DCP payments, totaling $104,035
                    [$93,358 (1997-2002 PFC and MLA) + $10,677 (2002-2003 DCP)].

                    Agency Response.

                    The State Committee concurs with this recommendation. As administrative
                    actions are taken, OIG will be provided copies of determination letters, and
                    documentation showing receivables have been established.

                    OIG Position.

                    We agree with the planned action. To reach management decision, we will
                    need the documentation referred to in your response.

Recommendation No. 5

                    Update FSA County Office records to reflect current land ownership of
                    FSN 1414. Determine whether a farm reconstitution is appropriate to divide
                    FSN 1414, and determine the proper division of the crop acreage bases.

                    Agency Response.

                    The State Committee concurs with this recommendation. As administrative
                    actions are taken, OIG will be provided documentation.

                    OIG Position.

                    We agree with the planned action. To reach management decision, we will
                    need the documentation showing that the land ownership has been updated,
                    and determinations concerning a farm reconstitution and proper division of
                    the crop acreage bases have been made.




USDA/OIG-A/03601-42-Te                                                                  Page 11
Recommendation No. 6

                    Take administrative action as deemed appropriate in the case of the program
                    technician who did not correct the farm records when the change in farm
                    ownership was brought to the technician’s attention. At a minimum, the
                    technician’s supervisor should review with the technician procedures for
                    updating farm records.

                    Agency Response.

                    The State Committee concurs with this recommendation. As administrative
                    actions are taken, OIG will be provided documentation.

                    OIG Position.

                    We agree with the planned action. To reach management decision, we will
                    need the documentation showing the administrative action taken against the
                    program technician.




USDA/OIG-A/03601-42-Te                                                                 Page 12
Scope and Methodology
We initiated an audit of farm program participation in Louisiana to determine producer eligibility and
the validity and accuracy of DCP payments under the 2002 Act. The scope of our review was
2002 and 2003 DCP participation, but we included prior year PFC participation as deemed necessary
to achieve the audit objectives. Fieldwork was performed from February through October 2003.

The State and county selected for review was based on OIG knowledge of previously reported farm
program irregularities in this parish. This potential program abuse could have an adverse impact on
the integrity of farm program administration in Louisiana. As of February 25, 2003, Louisiana
producers had received $109,793,648 in 2002 and 2003 DCP payments. Our review was conducted in
a county with 2002 and 2003 DCP payments totaling $2,344,885 during this same period.

Our review included 7 producers on 20 farms that participated in DCP for program years
2002 and 2003. We judgmentally selected producers for review based on large total dollar amounts of
payments and included current county committee members in our sample. As of February 25, 2003,
our sample producers had received DCP payments totaling $220,287.

To accomplish the audit objectives, we evaluated State office controls and analyzed State, county, and
producer payment data from the Louisiana State FSA. We reviewed farm records of selected
producers, focusing on DCP requirements. We also reviewed records associated with producer
participation in the PFCs in cases where the landowners elected to roll over the crop acreage bases and
yields into the DCP. We interviewed sample producers and landowners, as deemed necessary, to
verify farm records, and county office personnel provided insight and clarification during the review
process.

We conducted this audit in accordance with the Government Auditing Standards issued by the
Comptroller General of the United States. Accordingly, the audit included such tests of program
records as considered necessary to meet the audit objectives.




USDA/OIG-A/03601-42-Te                                                                         Page 13
Exhibit A – Summary of Monetary Results
                                                              Exhibit A - Page 1 of 1



  FINDING     RECOMMENDATION
  NUMBER          NUMBER       DESCRIPTION        AMOUNT        CATEGORY
     1               1         COC Chairperson    $ 814,355    Questioned
                               Misrepresents                   Costs, Recovery
                               Land Ownership                  Recommended
                               To Secure
                               Program Benefits
     2                   4     Producer            104,035     Questioned
                               Received                        Costs, Recovery
                               Program Benefits                Recommended
                               For Crop Base On
                               Land Previously
                               Sold
                     TOTAL                        $ 918,390




USDA/OIG-A/03601-42-Te                                                     Page 14
Exhibit B – FSA’s        Response to Draft Report
                                                    Exhibit B - Page 1 of 2




USDA/OIG-A/03601-42-Te                                           Page 15
                         Exhibit B – Page 2 of 2




USDA/OIG-A/03601-42-Te               Page 16
Informational copies of this report have been distributed to:

State Committee, FSA, Alexandria, LA                            (1)
Agency Liaison Officer                                          (3)
OCFO                                                            (1)
OCFO, PAD/Agency Liaison Office                                 (1)
GAO                                                             (2)
OMB                                                             (1)
